<html>
<title> - IMPROVING ADULT EDUCATION FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                         IMPROVING ADULT EDUCATION 
                             FOR THE 21ST CENTURY
__________________________________________________________________



                                    HEARING

                                  BEFORE THE

                  SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS

                                    OF THE

                          COMMITTEE ON EDUCATION AND

                                 THE WORKFORCE

                           HOUSE OF REPRESENTATIVES

                         ONE HUNDRED EIGHTH CONGRESS

                                 FIRST SESSION
		
                 HEARING HELD IN WASHINGTON, DC, MARCH 4, 2003

                                    _________

                               Serial No. 108-4

                                    _________

               Printed for the use of the Committee on Education
                               and the Workforce


86-682              U.S. GOVERNMENT PRINTING OFFICE

                            WASHINGTON : 2003
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800 FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001










                   COMMITTEE ON EDUCATION AND THE WORKFORCE
                        JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin			GEORGE MILLER, California
CASS BALLENGER, North Carolina			DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan			MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California		DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware			ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas				LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania		RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia			CAROLYN McCARTHY, New York
FRED UPTON, Michigan				JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan			RON KIND, Wisconsin
JIM DeMINT, South Carolina			DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia				DAVID WU, Oregon
JUDY BIGGERT, Illinois				RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania		SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio				BETTY McCOLLUM, Minnesota
RIC KELLER, Florida				DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska				ED CASE, Hawaii
JOE WILSON, South Carolina			RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma				DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada				CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota				TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas				
MARILYN N. MUSGRAVE, Colorado
MARSHA BLCAKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                Paula Nowakowski, Chief of Staff
            John Lawrence, Minority Staff Director


           SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS
           HOWARD P. "BUCK" McKEON, California, Chairman

JOHNNY ISAKSON, Georgia, Vice Chairman	DALE E. KILDEE, Michigan
JOHN A. BOEHNER, Ohio			JOHN F. TIERNEY, Massachusetts
THOMAS E. PETRI, Wisconsin		RON KIND, Wisconsin
MICHAEL N. CASTLE, Delaware		DAVID WU, Oregon
SAM JOHNSON, Texas			RUSH D. HOLT, New Jersey
FRED UPTON, Michigan			BETTY McCOLLUM, Minnesota
VERNON J. EHLERS, Michigan		CAROLYN McCARTHY, New York
PATRICK J. TIBERI, Ohio			CHRIS VAN HOLLEN, Maryland
RIC KELLER, Florida			TIMOTHY J. RYAN, Ohio
TOM OSBORNE, Nebraska			MAJOR R. OWENS, New York
TOM COLE, Oklahoma			DONALD M. PAYNE, New Jersey
JON C. PORTER, Nevada			ROBERT E. ANDREWS, New Jersey
JOHN R. CARTER, Texas			RUBEN HINOJOSA, Texas
PHIL GONGREY, Georgia
MAX BURNS, Georgia











                            Table of Contents


OPENING STATEMENT OF CHAIRMAN HOWARD "BUCK" MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C........................................................	1

OPENING STATEMENT OF RANKING MINORITY MEMBER DALE E. KILDEE, 
SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C.......................................................	3

STATEMENT OF CAROL D'AMICO, ASSISTANT SECRETARY, OFFICE OF 
VOCATIONAL AND ADULT EDUCATION, U.S. DEPARTMENT OF EDUCATION, 
WASHINGTON, D.C.......................................................  5

STATEMENT OF BETH B. BUEHLMANN, EXECUTIVE DIRECTOR, CENTER FOR 
WORKFORCE PREPARATION, U.S. CHAMBER OF COMMERCE	...................... 24

STATEMENT OF ANN-MARIE C. PANELLA, DIRECTOR OF HUMAN RESOURCES, 
MCS INDUSTRIES, INC., EASTON, PENNSYLVANIA ........................... 26

STATEMENT OF RANDY WHITFIELD, ASSOCIATE VICE PRESIDENT OF ACADEMIC 
AND STUDENT SERVICES, BASIC SKILLS DEPARTMENT, NORTH CAROLINA 
COMMUNITY COLLEGE SYSTEM ..............................................	27

STATEMENT OF HERMELINDA MORALES, ADULT EDUCATION PARTICIPANT, 
AURORA, COLORADO ...................................................... 29

APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN HOWARD "BUCK" 
MCKEON, SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C....................................................... 43

APPENDIX B - WRITTEN OPENING STATEMENT OF RANKING MINORITY MEMBER 
DALE E. KILDEE, SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C...................................... 47

APPENDIX C -- WRITTEN STATEMENT OF CAROL D'AMICO, ASSISTANT 
SECRETARY, OFFICE OF VOCATIONAL AND ADULT EDUCATION, U.S. 
DEPARTMENT OF EDUCATION, WASHINGTON, D.C.............................. 51

APPENDIX D -- WRITTEN STATEMENT OF BETH B. BUEHLMANN, EXECUTIVE 
DIRECTOR, CENTER FOR WORKFORCE PREPARATION, U.S. CHAMBER OF 
COMMERCE, WASHINGTON, D.C............................................. 69

APPENDIX E - WRITTEN STATEMENT OF ANN-MARIE C. PANELLA, DIRECTOR OF 
HUMAN RESOURCES, MCS INDUSTRIES, INC., EASTON, PENNSYLVANIA........... 79

APPENDIX F -- WRITTEN STATEMENT OF RANDY WHITFIELD, ASSOCIATE VICE 
PRESIDENT OF ACADEMIC AND STUDENT SERVICES, BASIC SKILLS 
DEPARTMENT, NORTH CAROLINA COMMUNITY COLLEGE SYSTEM................... 85

APPENDIX G -- WRITTEN STATEMENT OF HERMELINDA MORALES, ADULT 
EDUCATION PARTICIPANT, AURORA, COLORADO............................... 89

Table of Indexes ..................................................... 93


















                           IMPROVING ADULT EDUCATION

                              FOR THE 21ST CENTURY
                           ____________________________

                             TUESDAY, MARCH 4, 2003

                  SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS

                    COMMITTEE ON EDUCATION AND THE WORKFORCE

                          U.S. HOUSE OF REPRESENTATIVES

                                 WASHINGTON, D.C.




	The subcommittee met, pursuant to notice, at 2:00 p.m., in Room 2175, Rayburn House 
Office Building, Hon. Howard P. "Buck" McKeon [chairman of the subcommittee] presiding.

	Present:  Representatives McKeon, Isakson, Ehlers, Keller, Porter, Gingrey, Kildee, 
Tierney, Wu, Holt, Van Hollen, Ryan, Payne, and Hinojosa.

	Staff present:  Kevin Frank, Professional Staff Member; Alexa Marrero, Press Secretary; 
Whitney Rhoades, Professional Staff Member; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator; Bob Sweet, Professional Staff Member; Liz Wheel, Legislative Assistant; Alex Nock, 
Minority Legislative Associate; and Joe Novotny, Minority Clerk/Staff Assistant.

OPENING STATEMENT OF CHAIRMAN HOWARD "BUCK" MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C.

Chairman McKeon  XE "Chairman McKeon"  . A quorum being present, the Subcommittee on 
21st Century Competitiveness will come to order.

	We are meeting today to hear testimony on improving adult education for the 21st century.  
Under committee rule 12(b), opening statements are limited to the chairman and the ranking 
minority member of the subcommittee.  Therefore, if other members have statements, they may be 
included in the hearing record.

	With that, I ask unanimous consent for the hearing record to remain open 14 days to allow 
members' statements and other extraneous materials during the hearing to be submitted in the 
official hearing record.  Without objection, so ordered.

	Good afternoon. Thank you all for coming.  I appreciate your willingness to testify before 
this subcommittee and I would also like to thank those of you who are here to hear these witnesses.

	We are looking forward to your comments and the recommendations you will provide to 
improve the adult education system in the United States.

	In 1998, the Workforce Investment Act was passed, which included Title II, the Adult 
Education and Family Literacy Act.  States have been working hard to implement this law for four 
years, and now here we are again, ready to make further improvements.

	As we begin the 21st century, the need for an educated populous is critical to our success in 
maintaining our place in the global economy, and providing opportunities for all of our citizens to 
reach their highest potential.

	But the truth is, there is an increasing number of adults who have not mastered the basic 
skills, like the ability to read with fluency, write with clarity, and do simple computational math.  
Some of this is due to the fact that new immigrants currently amount to almost half of our net 
population growth, and labor force expansion.

	It is estimated that by the year 2020, the nation will lose 43 million people who have some 
level of college experience from the workforce, and they need to be replaced.

	In the No Child Left Behind Act, we have addressed many of these issues, by making sure 
that schools are held accountable for improving academic skills of students, tripling the funds for 
reading instruction, and expanding opportunities for school systems to help students in poor school 
districts improve their basic skills.

	That is the first line of defense for making sure all citizens know at least the basic skills.  
But there are many individuals who have been left behind already.  That population includes adults 
who have dropped out of school, been passed on through the grades without ever mastering the 
basics, or an increasing number of adults who have immigrated to the United States and do not 
have English as their first language.

	Certainly the federal adult education program cannot solve all the problems we have, but 
we can do our best to target the resources towards the most critical needs of our citizens.  I believe 
this is an issue where there is broad bipartisan support.

	Increasing the focus on strengthening skills in basic reading, math, and English acquisition 
is an important first step for adults who need these skills.  They are, after all, the gateway skills to a 
better job, and to a more secure future.

	Adults need more education than a GED or its equivalent.  But that takes real commitment, 
time, and effort. Our efforts to improve the adult education program should make it easier for 
adults to access quality programs.  Thus, improving accountability provisions, improving 
professional development programs, insisting that research-validated instructional practices are 
used, and conducting the research necessary to expand our knowledge of what works is essential as 
we move toward the reauthorization of this Act.

	There are major challenges ahead of us.  For example, in 2001, ESL enrollment was 42 
percent of the total enrollment in state-administered adult education programs. But there were 
continuing reports of waiting lists for classes in many parts of the nation.

	The U.S. Census Bureau data from 1999 show that full-time workers 18 years and older 
who have not yet completed high school earn an average of $23,447 a year.  The average for all 
workers is $43,396.  Those without a high school diploma or its equivalent, on average, earn almost 
half the salary, or just over half the salary of the average worker.

	Employers searching for qualified employees over the past five years have noticed an 
increasing trend in the numbers of employees lacking the basic skills needed in the workplace.

	My wife and I were just out of the country for a few days.  When we came back in, we had 
not heard much English in the couple of days we had been gone.  As we re-entered, they said, 
``That line down there is for U.S. citizens,'' so we went down, and we said, ``Oh, boy, this is great.  
Nobody in line was speaking English.''

Chairman McKeon  XE "Chairman McKeon"  . We must keep these facts in mind as we re-
authorize the Adult Education and Family Literacy Act.  Your testimony is vital to that task, and 
we look forward to hearing from each of you today.

	I now yield to Congressman Kildee, ranking member of the committee, for his opening 
statement.

WRITTEN OPENING STATEMENT OF CHAIRMAN HOWARD "BUCK" MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C.-APPENDIX A

OPENING STATEMENT OF RANKING MINORITY MEMBER DALE E. 
KILDEE, SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, D.C.

Mr. Kildee  XE "Mr. Kildee"  . Thank you, Mr. Chairman, and my friend.  I am pleased to join 
you at today's hearing on the Adult Education and Family Literacy Act.

	I especially want to welcome Assistant Secretary D'Amico to the subcommittee today.  I 
know that all the members look forward to your testimony and the testimony of today's other 
witnesses.

	Adult education is a key federal investment in strengthening the literacy and employability 
of our nation.  Very few adults in the United States are completely and truly illiterate.  However, 
there are many, many adults without the literacy skills they need to find and keep decent jobs, 
support their children's education, and participate actively in life.

	According to the National Adult Literacy Survey, over 90 million people lack a sufficient 
foundation of basic skills to function successfully in our society.  These individuals cannot provide 
for their families and secure their economic future.

	As we look to reauthorize the adult education programs, I believe we need to focus on 
upgrading the quality of our programs.  As the need for adult education continues, we must ensure 
that adult learners have the highest quality staff, and benefit from the best research-based 
curriculum. We also must ensure that both the Federal Government and states provide increased 
funding to meet the needs of adult learners.

	Our states and localities cannot be expected to provide top-notch adult education programs 
on a shoe-string budget.  In addition, we need to be continually sensitive to the needs in the adult 
education population.

	The fastest growing segment of adult education is English as a Second Language classes.  
As immigrants continue to come to our country, and seek to become a part of our society, and 
obtain employment, literacy is a critical goal.

I think this is true all around the country.  Only certain states were impacted at first, but 
there are very few states that are not impacted now by immigrants, and they enrich our society.  
They have some special needs.  We should, as a Federal Government, recognize the needs because 
immigration is federal policy.  We are enriched by these people, but the Federal Government has, I 
think, a special responsibility.

	Lastly, I look forward to hearing about the administration's reauthorization priorities.  I 
would be remiss if I did not express my concern about the Department's proposal to block grant 
vocational education and eliminate its secondary focus.

	However, the initial components of the administration's proposals on adult education seem 
promising in putting its focus on standards for adult education programs.  I look forward to 
working with the administration, and you, Assistant Secretary D'Amico, as we focus on making our 
adult education programs more effective.

	Thank you, Mr. Chairman.


WRITTEN OPENING STATEMENT OF RANKING MINORITY MEMBER DALE E. KILDEE, 
SUBCOMMITTEE ON 21ST CENTURY COMPETETIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C.-APPENDIX B

Chairman McKeon  XE "Chairman McKeon"  . Thank you, Mr. Kildee.  I would now like to 
introduce the witnesses.  We have two panels of witnesses today.

	Before the Assistant Secretary begins her testimony, I would like to remind the members 
that we will impose a five-minute limit on all questions.

Dr. D'Amico is the Assistant Secretary for the Office for Vocational and Adult Education at 
the U.S. Department of Education.  Previously, she was the executive director for workforce, 
economic, and community development at Ivy Tech Community College of Indiana, in 
Indianapolis, Indiana.

Dr. D'Amico has also served as a policy and planning specialist for the Indiana Department 
of Education, and senior program analyst for the Indiana General Assembly.  In addition, she is the 
co-author of ``Workforce 2020:  Work and Workers in the 21st Century,'' which offers 
recommendations on how to equip the 21st century workforce.

	She is a hard worker and knowledgeable.  I had the opportunity of having her in my district 
at CLC, where she held a hearing and met with people.  She is working hard to carry our message -
her message - to the people and the country.

	We are happy to have you here today, and turn the time over now to you.

STATEMENT OF CAROL D'AMICO, ASSISTANT SECRETARY, OFFICE 
OF VOCATIONAL AND ADULT EDUCATION, U.S. DEPARTMENT OF 
EDUCATION, WASHINGTON, D.C.

Dr. D'Amico  XE "Ms. D'Amico"  . Thank you, Mr. Chairman.  Mr. Chairman and members of 
the committee, thank you for inviting me to testify on the administration's ideas for literacy 
education for our nation's adults.

	I have prepared a written statement I would like to enter into the record.  I will now review 
the key points from that statement.

	The federal program for adult literacy is an inadequate tool to address the gap between the 
literacy skills needed by the nation's adults and the current level of literacy in the nation.  Tens of 
millions of adults do not have the reading, language, computational, or English language skills they 
need to be self-sufficient, and to continue to adapt to the changing demands of the economy.

	A growing proportion of participants in our program - 42 percent - are in English 
acquisition programs with the remaining 58 percent possessing the basic skills below a high school 
equivalent level.

	I advocate expanding our vision by thinking creatively about the literacy education 
program, and in this vision, a quality literacy education program would achieve the following.

	Adults will learn the core academic skills they need for current and future education, 
training, or work opportunities.  Adults will complete the high school equivalent level of adult 
education, possessing the basic reading, language, English language, and computational skills they 
need to go on to post-secondary education or training, or employment without the need for 
remediation.

	Students will improve their skills quickly when they participate.  They will be able to find 
educational options close by that fit their schedules, and programs will be equipped to meet the 
special needs of students with disabilities.

	Legislation can promote this vision by focusing on several criteria that parallel the 
principles of No Child Left Behind.

	First, the instructional component of adult basic and literacy education is essential.  
Programs need to improve their quality, both to accelerate student learning, and to obtain results.  
Students need academic skills.  Employers need to see demonstrated results that they value, such as 
students' attainment of basic skills they will need to increase productivity.

	While the law should continue to authorize basic, secondary, family, workplace, and 
English literacy activities, each of these programs need to focus on student achievement of core 
academic skills that leads to better employment opportunities.

	Second, academic achievement will be more easily obtained with rigorous content standards 
and student assessments.  We propose that the new legislation encourages the adoption of state-
level content standards, and standardized assessments in every state in language arts, mathematics, 
and English fluency, to ensure quality instruction and results.

	Just as accountability under No Child Left Behind is dependent on clear academic 
standards, and assessing students' proficiency against those standards, so are standards and 
assessments needed to foster accountability in adult literacy education.

	For adults, standards should be calibrated against real-world expectations, such as entering 
post-secondary education, entering the workforce, or English fluency.  The standards states 
established under No Child Left Behind provide another benchmark against which states can 
calibrate their standards for all adult students.

	We will support states in forming voluntary partnerships to develop standards and align 
student assessments to those standards so that each state does not have to incur the costs of 
developing them themselves.

	We know that in any endeavor, a system will treasure what we measure.  That is why 
choosing appropriate accountability measures and attaching values to those measures is extremely 
important.  The accountability system established in the Adult Education and Family Literacy Act 
of 1998 was a break-through in that it was a step toward accountability for student outcomes.

	We recommend that new legislation streamline and strengthen the accountability system to 
focus on what we really want from adult basic education:  student learning, completion of 
education credentials, and successful employment outcomes.

	These measures are consistent with a set of common measures the administration has 
developed in order to assess various federal programs that contribute to workforce development, 
including adult basic and literacy education.

	The unique contribution of adult basic education to workforce development is to ensure that 
adults have a solid academic foundation to prepare them for the challenges of the labor market.  
Thus, the adult basic education accountability system must maintain a focus on learning gains, 
education credentials, and workforce success.

	The legislation should promote accountability by continuing to offer incentives for success, 
and much more explicit consequences for failure to perform, including both technical assistance 
and sanctions.  States must be held accountable for taking action to improve local program results 
if the states are not meeting their goals.  Ultimately, states should stop funding grantees that are not 
effectively serving the public.

	Third, funding needs to be focused on what works, to encourage and motivate adult 
education programs to adopt promising instructional strategies.  We propose that the legislation 
contain provisions to support research-based practices.

	The President's Fiscal 2004 budget includes funding for national activities in the $584,000 
requested for adult basic and literacy education, and proposes that Congress authorize the secretary 
to reserve a percentage of that total for national activities.

	We will focus national projects on scientifically-based research on instructional practices, 
and helping states and instructors use research and evaluation findings to improve instruction.

	The National Institute for Literacy, NIFL, can play an important role in the support and 
dissemination of research on literacy.  The administration supports the reauthorization of NIFL to 
ensure that national research on adult literacy is coordinated with what we are learning about 
reading research across the life span.

	Fourth, we will seek to provide more access and choice to adult education students.  We 
will ask states to build the capacity of community-based organizations, including faith-based 
organizations, to provide these services.  Access will also be increased to participation of 
employers, and the promotion of workplace literacy projects.

	We will open grant competitions to for-profit educational institutions.  Other means are 
being explored to encourage states to create options for students, including financial incentives for 
agencies that successfully diversify their local providers, and increase the number of students 
enrolled.

	Technology also has great promise for improving adults' access to education and capacity.  
The legislation should support advancement of technology for adult learning. We propose to 
continue emphasizing the development of technology applications, and a new approach to teaching 
through technology through the state and national leadership activities.

	Finally, flexibility is key to literacy education. For the reauthorization of the Workforce 
Investment Act, the Departments of Education and Labor will propose to reduce the administrative 
burden, and provide more flexibility in the establishment of local interagency relationships.

	Basic and literacy education will continue to be a partner in workforce development.  
Together, the departments are developing provisions to encourage referrals, joint services, and 
other strategies for coordination, while increasing flexibility.

	If the trends of the last decade continue, a total of 23 million new jobs will be created in the 
next 10 years. Eighty percent of the fastest growing sectors will require some post-secondary 
education.  Adults without a high school diploma, or its equivalent, have no access to these jobs. 
Those with basic skills below the high school level have a very tough road ahead of them to 
maintain employment and self-sufficiency.

	The vision of our proposal I have shared with you today addresses this concern.  It is our 
goal that all American adults have opportunities to improve their basic and literacy skills in high-
quality, research-based programs that will equip them to succeed in the next step of their education 
and employment.

	I look forward to working with the committee to craft federal policy that will successfully 
support the realization of this vision.  I would be happy now to answer any questions that you 
might have.

WRITTEN STATEMENT OF CAROL D'AMICO, ASSISTANT SECRETARY, OFFICE OF 
VOCATIONAL AND ADULT EDUCATION, U.S. DEPARTMENT OF EDUCATION, 
WASHINGTON, D.C. - APPENDIX C

Chairman McKeon  XE "Chairman McKeon"  . Thank you very much.  How is it possible that a 
nation spending nearly three quarters of a trillion dollars on education at all levels can graduate 
students who cannot read and write, even at a basic level?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, until this point, as you know, we have allowed 
students to get through the system without ever having been tested on whether they can read and do 
math.

	Congress passed No Child Left Behind, that I truly believe will address this issue over the 
time, and we will have fewer of those instances in many ways, because students now will not be 
able to get out of school without being able to demonstrate they can read and do math.

Chairman McKeon  XE "Chairman McKeon"  . That should help the problem, as you said, over 
a period of time, or the long run, but we need to break the chain with your program here.  And that 
will help us, if we can really address the problem with the adults.

	You often mention improving literacy skills in your testimony.  Literacy is often used in a 
very broad sense. What are the literacy skills you are referring to, and what percentage of all 2.7 
million adult education participants are in need of these skills?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, one point of our testimony today, is to talk about the 
federal role in literacy, and to focus the federal role on improving the academic component of the 
literacy program:  computational skills, reading skills, and English language acquisition.

	The program is a partnership among federal, state, and local providers.  What we are 
focusing on in this testimony is the academic component of the literacy program that will prepare 
adults for the next step in their lives. That is going to be further education training and a job, to 
move up the wage ladder and up the skill ladder.

	So when we focus today on literacy, it's the academic preparation of literacy towards those 
ends.

Chairman McKeon  XE "Chairman McKeon"  . You know, sometimes, we cannot tell by 
looking at somebody's face whether they can read or not.

Dr. D'Amico  XE "Ms. D'Amico"  . No.

Chairman McKeon  XE "Chairman McKeon"  . And sometimes, they learn to cover their lack of 
ability to read to avoid embarrassment.  I had a friend years ago that and I think we were together 
in a church setting, and it came his turn to read, and he could not read.  I could not believe it.

	I mean, here was a guy that had his own business and seemed to be fairly successful.  Since 
then, he has taught himself how to read.  But I remember how surprised I was at that time.

	I had another friend years ago, who was Hispanic.  I was serving a mission for our church 
down in New Mexico. At times, we would be at their home and they would invite us in for dinner.  
He was a hard-working guy, and had a large family.  He would come home at night, and would 
always read the paper with a dictionary.  And he was, again, teaching himself to improve.

	If people have that kind of willingness to learn, we should be able to provide the 
wherewithal to teach them so that they do not have to do it on their own.  Thank you very much.  
Mr. Kildee?

Mr. Kildee  XE "Mr. Kildee"  . Thank you, Mr. Chairman and Madam Secretary.  You propose 
standards for adult education.  We require standards in the No Child Left Behind Act.  How should 
we do this for adult education?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, what we are suggesting here is that every state would 
develop its own set of standards for adult education.  Given that the states have just gone through 
that exercise with No Child Left Behind, there is a good benchmark there for states to start with 
adult education, particularly if we're talking about English, language arts, math, and English 
acquisition.

	So it would be a similar exercise in that every state would develop its set of standards and 
assessments that would measure the attainment of those standards.

Mr. Kildee  XE "Mr. Kildee"  . So you believe that the No Child Left Behind Act could give 
them some guidance for developing standards and testing.

Dr. D'Amico  XE "Ms. D'Amico"  . It could.  That is right.

Mr. Kildee  XE "Mr. Kildee"  . Thank you very much.  Secretary Chao, in talking about the 
Administration's WIA bill, says it will be creating more comprehensive operations in the one-stop 
career center system by revising methods of funding infrastructure costs for those centers.

	Does this mean that they plan to take some money off the top of the Department of 
Education appropriations for vocational education, adult education, as partners to pay for part of 
those centers?

Dr. D'Amico  XE "Ms. D'Amico"  . I cannot speak to what the Secretary talked about.  I do 
know that we are in discussions with the Department of Labor now about various ways that adult 
education will interface with the one-stops and the Workforce Investment Act.  I believe that those 
will be worked out in very short order.

Mr. Kildee  XE "Mr. Kildee"  . Would you support having vocational education paying part of 
the infrastructure costs, or adult education, for those centers?

Dr. D'Amico  XE "Ms. D'Amico"  . There are a lot of things that we are talking about right now, 
in support of those one-stops, so I am not prepared to say at this time what we will finally end up 
with.  But we have lots of ideas on the table.

Mr. Kildee  XE "Mr. Kildee"  . I think, as you know, we are concerned about making sure we 
have a very, very top-notch vocational education program as well as adult education.

	We also want to have a sure flow of dollars to run the one-stop centers.  Do you have any 
suggestions of how we, as Congress, can guarantee this funding?  Right now, partners, very often, 
put in a certain percentage.  Do you have any suggestions as to how, without perhaps taking money 
away from vocational education or adult education, that we could find a sure source, a steady, 
predictable source of funding for the one-stop centers?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, as I mentioned, we are having discussions between 
the two departments on many options.  I am sure we will be conveying those suggestions in 
relatively short order, as we discuss the reauthorization of WIA.

Mr. Kildee  XE "Mr. Kildee"  . Okay.  Well, we would certainly welcome that.  Buck and I put 
this together in 1998, and it's a good bill, it's a very good bill.  I think as we make adjustments, as 
we do every four or five years - we want to make sure that we take the best of what we have 
already written, and add the best.  We need careful guidance from both the Department of 
Education and the Department of Labor.

	I used to half-jokingly say - and it's certainly not the case any more - when I first came out 
here 27 years ago, that we should have at least one telephone line between the Department of 
Education and the Department of Labor.  You have done more than that.

Dr. D'Amico  XE "Ms. D'Amico"  . We have.

Mr. Kildee  XE "Mr. Kildee"  . It's a much better collaboration now, and I certainly appreciate 
that.

Dr. D'Amico  XE "Ms. D'Amico"  . Thank you.

Mr. Kildee  XE "Mr. Kildee"  . And thank you for your testimony.

Chairman McKeon  XE "Chairman McKeon"  . Dr. Gingrey?

Dr. Gingrey  XE "Dr. Gingrey"  . Thank you, Mr. Chairman.  Madam Secretary, you 
mentioned that upwards of, I think you said, 50 percent of new college students need to take 
remedial courses.  I know in my state of Georgia, we have a HOPE Scholarship program, which is 
a wonderful program, that Governor Miller - now Senator Miller - started.  It has been a great 
success.

	However, when it first started, students, of course, were eligible for that HOPE scholarship 
if they had a B average.  Now it is a B average just in core curriculum.  But an alarming number of 
those students with B averages were taking remedial courses at our flagship university, University 
of Georgia.

	And you know, I was just wondering as I heard your testimony, why do you think students 
graduate from high school without mastering these basic skills and why do, nationwide, 50 percent 
of students who have close to a B average, end up in our colleges and universities having to take all 
these remedial courses that they get no credit for?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, I think the research would show that not enough of 
our students are taking the rigorous core academics they need to succeed in college.  That is why 
there is a need for remediation.

	One of the things that standards would do is to encourage a conversation between high 
schools and colleges on what the academic expectations for success are by colleges, and to make 
sure that the standards address those academic expectations.

	We have a system now where there is not enough encouragement for the high schools and 
the community colleges, and the universities talk to each other about expectations. Therefore, the 
identification of standards would be one way to encourage that conversation.

	Just simply not enough of our young students in high schools are taking core academic 
courses they need for success.  Really, only a little over a third take the rigorous core that was 
recommended by Nation At Risk 20 years ago.  We need to encourage our young people to take 
more rigorous courses.

	I believe the identification of standards and calibrating those standards in adult education 
will lead to what you need for success in the next step of your life in post-secondary education and 
employment.  

Dr. Gingrey  XE "Dr. Gingrey"  . Great, thank you.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.

Mr. Ryan?  Left.

Mr. Holt  XE "Mr. Holt"  ?

Mr. Holt  XE "Mr. Holt"  . Thank you, Mr. Chairman.  Madam Secretary, there is-you have-
well, first of all, I want to associate myself with the comments of Mr. Kildee, and pursue a little bit 
some of his line of questioning, also.

	You have talked a lot about gauging the cost effectiveness-I mean, the Department has 
talked a lot about gauging the cost effectiveness of the workforce training and education programs.  
How-for this large population of functionally illiterate people, how do you gauge the cost 
effectiveness of the services that you provide?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, in 1998, in the law, as I said in my testimony, it went 
a long way in terms of trying to build some accountability into the system.  So there are measures 
that are in the law that we use to evaluate the effectiveness of the program, and they were given to 
us in the law, and I applaud Congress at the time for putting in accountability measures in the adult 
education program, and we intend to suggest building on those measures.

	So it is whether students had an academic gain, it's whether they got their high school 
credential, a diploma or a GED.  Did they get a job, as a result of their participation? And did they 
advance and retain that job?  So those measures are appropriately inside the law.

Mr. Holt  XE "Mr. Holt"  . And by that scale, by those measures, what progress would you say 
has been made since 1998?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, it is hard to draw a national picture on it, Mr. Holt, 
because every state, by law, sets their own performance measures, and the state and the department 
negotiate those performance measures.

	So it is different for each state, and there is not an easy way to take the national view, 
because the measures are not comparable across the country.  So we look at it on a state-by-state 
basis.  It is hard to draw a national picture.

Mr. Holt  XE "Mr. Holt"  . Are you suggesting then, Madam Secretary, that in reauthorizing 
this, we should apply national standards of accountability, national standards of cost effectiveness, 
a single measure?

Dr. D'Amico  XE "Ms. D'Amico"  . No, I am not suggesting that.  I am suggesting -

Mr. Holt  XE "Mr. Holt"  . Well, you are having some trouble, I think, in giving me a sense of 
what progress has been made since 1998.

Dr. D'Amico  XE "Ms. D'Amico"  . I would say it is state-by-state.  The progress that has been 
made is the focus on attainment of learning, a focus on high school credentials, and a focus on a 
job.

	The standards that we are suggesting that each state put in would help the states define 
academic attainment in math, reading, and language proficiency.

Mr. Holt  XE "Mr. Holt"  . And those exist now, or those have yet to be created?

Dr. D'Amico  XE "Ms. D'Amico"  . According to what we determine, there are not too many 
states that actually have adopted academic standards for their adult education program.

Mr. Holt  XE "Mr. Holt"  . So again, are you suggesting that we mandate that, nationally?

Dr. D'Amico  XE "Ms. D'Amico"  . Not a national set of standards, but that we require the states 
to have their own set of academic standards for adult education in reading, language arts, math, and 
English acquisition.

Mr. Holt  XE "Mr. Holt"  . Now, the funding that is in the request for Fiscal Year 2004, just 
shy of $600 million, is that adequate?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, we need to do more with what we have.  Our 
proposals along access and choice will expand the programs with what we have.  We can do more 
with what we have, and we should do more with what we have.

Mr. Holt  XE "Mr. Holt"  . If there are, as I understand, nearly 100 million functionally 
illiterate, people whose literacy is somewhat limited or compromised, that's about $5 per person per 
year.  Is this-includes outreach as well as education?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, as I mentioned, this program is designed to be a 
partnership among the federal government, state government, and local providers.  So there are a 
lot of resources that go into this program at the state and local level.

	What we would do with standards and the expansion of capacity is to make sure that once 
you have a set of standards in place, then you can expand the providers because you know what the 
academic expectations are for that program.

	So the combination of our ideas to expand access and create standards that employers, 
community organizations and colleges could use, would go a long way to expanding capacity 
without the need to expand the resources.

Mr. Holt  XE "Mr. Holt"  . Well, I see my time has expired.  At another time I would like to 
explore how this $5 per person can be leveraged to actually produce literacy.  Thank you.

Chairman McKeon  XE "Chairman McKeon"  . The vice chairman of the subcommittee, Mr. 
Isakson.

Mr. Isakson  XE "Mr. Isakson"  . Thank you, Mr. Chairman.  Secretary D'Amico, tell me if I 
am right.  Isn't the reason it was so difficult to answer Mr. Holt and Mr. Kildee's question regarding 
uniform standards, because the 50 states are all over the board in terms of the degree they make a 
commitment to adult and technical education?

Dr. D'Amico  XE "Ms. D'Amico"  . It is.

Mr. Isakson  XE "Mr. Isakson"  . That is what I have found.  Some states are tremendous.  
Others have very little adult and technical education.  That is why it is so difficult to make it 
uniform.

	Second thing, you said the $64,000 answer.  The biggest problem we have is that there is no 
communication between K-12, adult and technical, and the university systems and colleges of the 
state.  There is absolutely no collaboration, which was causing us, in Georgia, huge problems.

	I know we are talking about $591 million, which in the scheme of things is a relatively 
small amount, given the investment in adult and technical education.  However, one thing we could 
do to get states' attention is to require them to have a collaboration board, or some type of joint 
board, where the state board of education, the regents, or university system, chancellors, and adult 
and technical education actually do collaborate.

	I mean, some may just create a board to fill in the blank, but I really think that is our single 
biggest problem, which leads me to this question.  In your testimony, you said you looked forward 
to discussing our proposal for secondary technical education serving youth and high schools and 
colleges.

	Does that portend that you are going to reach into the high schools and try and identify 
people and begin collaborating so we can save some of them earlier, and get them on the right track 
towards a technical education? Is that what that means?  Since you mentioned high school and 
adult, I did not know if that is what was meant, or not.

Dr. D'Amico  XE "Ms. D'Amico"  . Was it in the combination of standards?  Was it the 
conversation about standards?

Mr. Isakson  XE "Mr. Isakson"  . It was talking about the educational pipeline to better equip 
future workers.

Dr. D'Amico  XE "Ms. D'Amico"  . Okay.  This adult education is part of the pipeline for 
getting people ready for the workforce. The unique contribution that we make in the Department of 
Education is making sure that people, whether they are adults or high school students, are 
academically prepared to be part of that pipeline.  And I think that was the context that I was 
talking about.

	I believe that when Mr. McKeon and I were talking, that No Child Left Behind, once it 
takes full effect, will reduce the need for adult education over time, because we will catch a lot of 
those students before they leave high school without basic academic skills.

Mr. Isakson  XE "Mr. Isakson"  . Yes, I think it will reduce the remediation and retraining, or 
training components in English and math.  I think it will enhance adult education, in terms of doing 
what everybody thinks it already does, which is technical training for skilled workers.

	You are right, that literacy, is our big problem.  I would encourage you, when you look at it 
on this collaboration between K-12, adult, technical, and universities, to also think about one of the 
problems we have in America is a kid that is in high school, the goal for continuing education is 
generally set on the academic requirements to be admitted to a university or a college.

	They go visit colleges and universities, and take the SATs.  There really is, sophomore, 
junior, and senior year, nothing that exposes them to adult and technical education.  This is where 
many of our kids should go from high school for a variety of reasons.

	So hopefully, if we can promote collaboration, we can also promote exposure and a track, 
for kids who are in high school to be exposed to adult and technical education opportunities.  There 
are a myriad of great jobs that adult and technical training gives people to become very gainfully 
employed individuals.  However, there is a disconnect between the K-12 environment and the track 
to go to a technical school.  They miss the opportunity all together.

	But I enjoyed your testimony, I appreciate what you're doing, and I look forward to the 
specific proposals.

Dr. D'Amico  XE "Ms. D'Amico"  . Thank you.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Hinojosa?

Mr. Hinojosa  XE "Mr. Hinojosa"  . Thank you, Mr. Chairman.  Madam Secretary D'Amico, 
thank you for your testimony today.  I appreciate the tremendous responsibility you share in 
helping our workforce develop, the job skills, and the confidence they need to find quality 
employment.

	On page seven of your testimony, you outline a vision for adult basic and literacy 
education.  I certainly agree with you on those points.  They are very applicable, especially in my 
congressional district.  And I look forward to seeing your ideas implemented.

	But I would like your vision even more if you would include within or among your goals 
for training the individuals a curriculum for basic financial literacy.  We have many constituents in 
my area that do not have a banking account.  They do not trust the banks, they do not know how to 
handle the financial statements, and many of the requirements of handling a bank account.

	The Federal Deposit Insurance Corporation has developed Money Smart, a program to 
teach adults about opening and maintaining checking accounts, about saving money, about buying 
a home, and having responsible credit.

	As a former businessman who represents a district with thousands of these unbanked 
residents, I obviously support this type of training.  I strongly urge you that, in addition to language 
and other skills being taught through your programs, that your trainees also receive opportunities to 
become more financially prepared.  What has your office been doing in this regard?

Dr. D'Amico  XE "Ms. D'Amico"  . I am not sure that our office has a financial literacy 
program.  I do know that in many of the local programs, this is a component of their adult 
education program, because I, myself, have seen it in a couple of sites where they use it as a way to 
teach math, or a way to teach being a good citizen.  So I do know that it does go on in many of our 
local programs.

Mr. Hinojosa  XE "Mr. Hinojosa"  . Let me share with you that this weekend our senior 
senator from Texas, Kay Bailey Hutchison, and I participated in a women's conference, a workshop 
for over 300 women who want to be empowered and given opportunities to learn more and become 
effective community leaders.

	And one of the components of that training program that they had all day, from 8:00 in the 
morning until 5:00 in the afternoon, was this that we're talking about, financial literacy, and 
financial knowledge.  And that was one that had the most participants, one that had very lively 
discussions and questions.  So I know that there is a great need, and I wish that you would take a 
look at what I am asking, and see if there are ways in which your office can offer that.

	I have one question on vocational education that I would like to ask you.  Our present 
administration's budget proposes to allow states to transfer their vocational education funding to 
Title I programs.  Do you support such a proposal?  And second part, wouldn't this eviscerate 
vocational education in many states like Texas?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, I am not here today to talk about that particular 
proposal.  I am looking forward to the day when I do that.

	We have issued a four-page blueprint on our ideas, or principles, on the reauthorization of 
vocational education. Those are available, I would be happy to share them with you. We are 
working on the details of that proposal that, hopefully, that we can send out in late spring and early 
summer.  So we will be back in touch on that.

Mr. Hinojosa  XE "Mr. Hinojosa"  . Well, if I can get a copy of that four-page paper that you 
mentioned, I would love to have one.

Dr. D'Amico  XE "Ms. D'Amico"  . Absolutely.  We will get it to you.

Mr. Hinojosa  XE "Mr. Hinojosa"  . Thank you.  Thank you, Mr. Chairman.

Chairman McKeon  XE "Ms. D'Amico"  . Thank you.  Mr. Van Hollen?

Mr. Van Hollen  XE "Mr. Van Hollen"  . Thank you, Mr. Chairman.  I just want to make one 
comment, and get your feedback.  I represent an area right outside Washington, D.C., in 
Montgomery County and parts of Prince George's County.  It's an area where we have a very large 
immigrant population.  About 50,000 adults in my congressional district do not-cannot-speak 
English.  And I know that's an important component of your efforts.

	If you could just speak generally to the type of focus you think we should be putting on that 
issue as we approach this reauthorization, and whether you have any specific recommendations in 
that area that you recommend we look at.

Dr. D'Amico  XE "Ms. D'Amico"  . Well, you are correct.  I do not know if you were here at the 
beginning of the testimony, but we talked about how 42 percent of the participants in the adult 
education program now are there for English acquisition.  So it is a big part of the program, and a 
growing one in just about every state.

	With regard to the issues that we talked about, including English acquisition, the focus 
should be on: fluency in English language to be successful in the workplace, and in post-secondary 
education in training; implementing standards for the instruction so that quality programs lead to 
English acquisition; and the performance measures that we use focus on acquisition of English 
fluency.

	We are focused on that issue, and making sure that we are measuring English acquisition 
fluency in those programs.

Mr. Van Hollen  XE "Mr. Van Hollen"  . As part of the reauthorization, are you talking about 
requiring the states to provide you with new measures that they're not providing now, or new 
standards?

Dr. D'Amico  XE "Ms. D'Amico"  . To make sure that the states have standards for those 
programs that, again, focus on the acquisition of language.

Mr. Van Hollen  XE "Mr. Van Hollen"  . Right.  And those standards would be reviewed by 
you to determine their sufficiency?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, I do not think we have talked about the details of the 
degree of federal involvement in those standards, but we certainly intend to require the states to 
have standards in those programs.

Mr. Van Hollen  XE "Mr. Van Hollen"  . All right.  And would you be reviewing their 
measures, to some extent?

Dr. D'Amico  XE "Ms. D'Amico"  . We negotiate the performance measures now with the 
states.

Mr. Van Hollen  XE "Mr. Van Hollen"  . Okay.  Thank you.

Dr. D'Amico  XE "Ms. D'Amico"  . We also talked in my testimony about making sure that the 
states have enough authority to hold accountable the local programs for those measures. Because 
today, that authority is not as strong as what it could be.

Mr. Van Hollen  XE "Mr. Van Hollen"  . Okay, thank you.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Ehlers?

Mr. Ehlers  XE "Mr. Ehlers"  . Thank you, Mr. Chairman.  Thank you for holding a hearing on 
this important topic.  Thank you for being here, I appreciate that.

	In Michigan, we have had an active vocational and adult education program for years, and it 
has certainly paid off.  But the first stage, of course, is to have people become educated well 
enough to get a meaningful job.

	The second stage is, of course, to find more than just a meaningful job, but rather a well-
paying job.  And lately, the concentration has been on that.  I have been told that American 
industry is spending something on the area of $60 billion a year on workplace training.  Much of 
that has to do with modern technology, particularly math and science-related issues.

	To what extent are your programs moving into that area? After you get people past the first 
stages of English acquisition, high school or GED, to what extent do you get into the math and 
science aspects, since more and more jobs are demanding some technical competence?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, as we talked about today, the focus right now on the 
adult literacy programs is making sure that adults have the literacy levels in reading, math, 
language arts, and English acquisition, up to the high school equivalent level.

	If they have that, then there are a lot of opportunities for them to expand their educational 
opportunities at the post-high school side.  Our focus is making sure they are ready to do that 
through Pell Grants, and a lot of other mechanisms that we have in place to help students and 
young adults continue their education. Our focus is making sure they get to that level, and can have 
the academic foundation to participate in those programs.

Mr. Ehlers  XE "Mr. Ehlers"  . I guess my question is, in a sense, challenging you to go 
beyond that.  If it is a matter of money, that is something we can try to deal with. But I think it is 
also important for you to challenge us on that score if you do not have the funds to do that.

	But more and more of the workplace training is going to require that, and frequently it's 
more cost-effective to do it as part of an ongoing adult ed program, rather than burdening the 
businesses, which, as I said, are spending substantial amounts of money at this.

Dr. D'Amico  XE "Ms. D'Amico"  . Well, many of the businesses are spending their own money 
on remediation in English in math. And if we can address that issue, that would go a long way to 
freeing their dollars up so that they could do higher level education and training.

Mr. Ehlers  XE "Mr. Ehlers"  . Thank you, Mr. Chairman.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Tierney?

Mr. Tierney  XE "Mr. Tierney"  . Thank you, Mr. Chairman.  Good afternoon.

Dr. D'Amico  XE "Ms. D'Amico"  . Good afternoon.

Mr. Tierney  XE "Mr. Tierney"  . Thanks for your testimony today.  I am sorry I missed it, but 
I will be sure to read it.  I had some questions that I wanted to ask about your written testimony, 
and if you have answered them before I apologize for that, but I am curious to know.

	You talk about legislation that should support increased participation of employers and 
promote workplace literacy projects, which is an area that I have been dealing with in my district 
extensively.  We have had some problems, though, in keeping the employers engaged in those 
kinds of programs.

	We find-and I do not know if you have found this in your travels, or what you might 
recommend, or have been recommending to do about it-as larger companies buy up more local 
companies, they have been disassembling the literacy programs that we have had.

	And their answer to it is rather than encumber the workplace where we have programs that 
people might start a half-hour before work on the clock, and stay a little longer, they will give a 
smaller donation to some literacy group within the community and walk away.

	Have you any ideas about how we can-first of all, what has been your experience?  Have 
you also seen success with programs that are placed in the workplace and work as I described?  
Secondly, do you notice this trend as you travel around the country, or is it just distinct to our state 
and district?  And third, what do you recommend to try and make sure that we have more 
participation of employers, and promote workplace literacy initiatives?

Dr. D'Amico  XE "Ms. D'Amico"  . First, we do have ideas on some model programs in 
workplace literacy.  We are putting together some projects now.  I have not heard about this issue 
of reduction in workplace literacy programs, but I can certainly have our staff check and let you 
know.

	As to how we encourage those, I believe there is a number of ways we can do that.  Number 
one, we have talked about states adopting a set of academic standards in literacy for adults.  I think 
employers get a little frustrated because they just do not have the tools they need to do a really 
good job in these programs.

	But if the state has a set of academic standards, it would be a lot easier for the employer to 
take those standards and incorporate those standards into their training programs. We need to give 
the tools to the employer to help do a credible job.

	I think another way to address this issue is by building the capacity in the community, so 
that there are other providers that are offering adult literacy programs in a variety of ways and 
times that are convenient to adults, and they partner with the employers.

Mr. Tierney  XE "Mr. Tierney"  . Well, that's-see, we have had a wide array of different 
groups within the community providing these services.  And they are the ones that usually work a 
deal with the employer to go ahead and provide the literacy program in the employment place.

	And I am not going to debate you on standards right now, but I do not think standards are 
the biggest problem that we have.  I think getting the employers to continue the programs and then 
funding them is our biggest problem.

	We have had a line-we have 19,000 people in my state waiting to get into literacy programs.  
That's not a standards issue, that's a how do I get in and get some help issue.  So what do you 
recommend about that?  What's the administration going to do about putting its money where its 
mouth is?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, I mentioned that we could do a lot more with the 
money that we have.

Mr. Tierney  XE "Mr. Tierney"  . How so?  Do you think we're wasting the money on literacy 
programs?

Dr. D'Amico  XE "Ms. D'Amico"  . I would not use that word.

Mr. Tierney  XE "Mr. Tierney"  . I hope not.

Dr. D'Amico  XE "Ms. D'Amico"  . I would say that what we would need to do are the things 
that we have talked about.  We need to build the capacity of various organizations and communities 
to provide this service, including employers.

Mr. Tierney  XE "Mr. Tierney"  . How are we not doing that, Dr. D'Amico?  I mean, how-

Dr. D'Amico  XE "Ms. D'Amico"  . Well, in your state it is a little different.  When you look at a 
national picture, there are some states where there is not a lot of diversification of providers of this 
program.  Your state is an exception.

Mr. Tierney  XE "Mr. Tierney"  . Well, I am parochial like that.  So I assume that you have 
some states where diversification may be an issue, and I am going to put that aside for a second and 
focus on states like Massachusetts, where we have a wide array of people and enough capacity 
within what we can pay for, but we really have a resource issue.  So how are we going to deal with 
that?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, the program is a partnership between the federal, 
state, and local community organizations. It was never intended to be a federal program.

Mr. Tierney  XE "Mr. Tierney"  . I understand that.  I am just wondering-we match those 
funds, the state level matches what the Federal Government gives.  Obviously, if we give some 
more and they match it, now we're moving to 19,000 people_

Dr. D'Amico  XE "Ms. D'Amico"  . Well, there is a variation on that match across the country.  
It is not uniform.  I think we need to turn our attention, first and foremost, to quality, efficiency, 
and making sure that there is a great deal of access to these programs.  Again, your state is - 

Mr. Tierney  XE "Mr. Tierney"  . I was going to say, you're walking around with 19,000 
people in a waiting line, that's not access.  And how else are you going to deal with the access issue 
unless you increase the resources at the state, as well as the Federal Government?  There is a 28 
percent match, so you know, we can leverage this thing and get going on that.

	But the waiting lines are enormous, and the quality has not been a huge issue in my state.  
Maybe it has been in some others, but you know, we've got some pretty good quality programs 
coming out with some very dedicated people who are well-trained and focused.

	We have got an array of people that are involved in this, different community organizations 
that are, you know, giving their life's work to this.  And it just comes out we're bumping up against 
a stone wall, and you know, can we get the Federal Government to help leverage some more 
money out of the state so that we can increase the capacity.  You do not see any hope for that?

Dr. D'Amico  XE "Ms. D'Amico"  . Well, as I said, not every state operates as Massachusetts 
does, and we look at a national picture.  Many of the things that we are suggesting will help a lot of 
states build the capacity and the quality of these programs, as well as make the standards and 
expectations more accessible so that technology, community groups, and employers can help 
deliver these programs, on a national picture.  I am not necessarily addressing your state in 
particular at this point.

Mr. Tierney  XE "Mr. Tierney"  . No, I am afraid you have not at all.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  I would like to recognize Bill 
Brock, former senator and former Secretary of Labor.  What have I left out?  We are happy to have 
you with us here today.  Thank you.  Mr. Burns?  Excuse me.

Mr. Kildee  XE "Mr. Kildee"  . I would like to also acknowledge Mr. Brock.  Both sides of the 
aisle always enjoyed working with him, and he was a man of great integrity and great ability. Good 
to have you here.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Burns?

Mr. Burns  XE "Mr. Burns"  . Thank you, Mr. Chairman.  And thank you, Dr. D'Amico, for 
being here today and sharing your expertise with us.

	As a Georgian, as one who has been involved in education for over 20 years, and as the 
husband of a lady who has taught adult and technical education for over a decade, I have an 
understanding of the challenges that you face, and the opportunities that go with it.

	Certainly the major focus in adult and technical education is to provide an individual with 
skills that allow them to enter the workforce.  So what we are trying to do is move people who may 
not have had opportunities in the past, give them those new opportunities, and have them then 
move into a work environment that is productive and positive.

	I reviewed your written comments, and I am sure in your presentation today, you talked 
about how the Department of Education and the Department of Labor can work cooperatively 
together to transition individuals from perhaps a position of not having the skills and the abilities 
they need to a position of gainful employment.

	Could you give us some ideas that we could take and look at to increase the coordination 
between Labor and Education, and specifically in the one-stop system?

Dr. D'Amico  XE "Ms. D'Amico"  . As I mentioned, we are working closely with the 
Department of Labor to come up with specific strategies on that issue so that the barriers to the 
joint referrals of programs from the one-stop into these programs have these agreements and 
partnerships.

	So we have a variety of strategies that we will be bringing forward on how to closer connect 
these two programs. We are dedicated to doing that.

Mr. Burns  XE "Mr. Burns"  . Let me just comment that, perhaps unlike Massachusetts, 
Georgia has had a very positive experience with adult and technical education through the Georgia 
Department of Adult and Technical Education, and it has made a significant difference in our 
communities.  I have seen individuals work through these fundamental skill set programs, and then 
advance to much higher-paying jobs, and much greater opportunities, including the medical 
profession and the teaching profession.  So you see people who can utilize this system as a means 
of personal development.

	And I think the challenge that we face is to make it more efficient and more available.  
Thank you, Mr. Chairman.

Dr. D'Amico  XE "Ms. D'Amico"  . Georgia has done a good job, at the state level, of making 
those connections.

Chairman McKeon  XE "Chairman McKeon"  . Thank you very much, Madam Secretary.  I 
want to thank you for your testimony, for being here today, and we will continue to work together 
as we go forward on this reauthorization.  Thank you very much.

Dr. D'Amico  XE "Ms. D'Amico"  . Thank you, Mr. Chairman and members of the committee.  I 
appreciate the opportunity.

Chairman McKeon  XE "Chairman McKeon"  . I would like to ask the next panel if you would 
please come forward and take your seats. Thank you.  We appreciate you all being here as our next 
panel.  Let me introduce you at this time.

Dr. Beth Buehlmann is the executive director for the Center for Workforce Preparation, 
where she has managed education and workforce policy for the U.S. Chamber of Commerce since 
1998.

	Prior to her current position, she worked as the director of federal relations for California 
State University. In addition, Dr. Buehlmann has served on the workforce excellence board, and the 
National Commission on the High School Senior Year.

	The next panelist will be Ms. Ann-Marie Panella, who has served as the director of human 
resources and community liaison at MCS Industries, Inc. since 1993.  She played a vital role in 
creating an alliance between MCS Industries and a local community college in order to provide 
employees with an opportunity to participate in adult literacy programs.

	Prior to her current position, she was the director of human resources for the Visiting Nurse 
Association of Bethlehem and Vicinity.  Ms. Panella also serves as a member of the board of 
supervisors for the township of Palmer, Pennsylvania.

	Next will be Dr. Randy Whitfield.  She is the associate vice president of academic and 
student services of the basic skills department at the North Carolina Community College system. 
Dr. Whitfield also serves as the chairperson of the National Adult Education Professional 
Development Consortium, and the National Counsel of State Directors of Adult Education.

	Previously, she worked as a consultant for Levi Strauss and Company, where she played a 
major role in planning and implementing a national workplace literacy program.  In San Francisco, 
or-

Dr. Whitfield  XE "Ms. Whitfield"  . Tennessee.

Chairman McKeon  XE "Chairman McKeon"  . Tennessee.  Well, that is close to San Francisco.

Chairman McKeon  XE "Chairman McKeon"  . In addition, she is the co-author of two books, 
Workplace Job-Specific Skills Programs:  The How To Do It Manual, and Adult Basic Skills 
Instructor Training Manual.  They both sound like how-to-do-it books.

	And our final panelist will be Ms. Hermelinda Morales Morales, a native of Mexico.  She 
received her American citizenship in 2002 and is a current participant in adult education classes to 
learn English as a second language. Ms. Morales has greatly improved her language skills, and with 
the assistance of a volunteer tutor, is preparing to take the GED exam.  Congratulations.  She has 
children who attend a local elementary school.

	Welcome.  We are happy to have all of you here today.  I remind members that the same 
five-minute rule for questioning will apply after the panel has given their messages, and we will 
begin with Dr. Buehlmann.


STATEMENT OF BETH B. BUEHLMANN, EXECUTIVE DIRECTOR, 
CENTER FOR WORKFORCE PREPARATION, U.S. CHAMBER OF 
COMMERCE

Dr. Buehlmann  XE "Ms. Buehlmann"  . Good afternoon.  My name is Beth Buehlmann, and I 
am the executive director of the Center for Workforce Preparation, CWP, a non-profit affiliate of 
the U.S. Chamber of Commerce.  I am pleased to have been invited to testify today, and I 
commend the subcommittee for holding this hearing on improving adult education.

	Finding qualified workers has consistently been identified as a priority and an ongoing 
challenge for chambers, and the small and mid-size businesses they represent.  CWP partners with 
state and local chambers to help their business members secure the workforce they need to be 
competitive in the 21st century economy.

	Three surveys, conducted by the Center for Workforce Preparation between April 2001 and 
January 2003, confirmed that employers are most concerned about the skill level of their workforce 
when it comes to remaining competitive.

	CWP helps businesses connect with the already existing resources in communities to help 
them hire, train, retain, and advance workers in highly competitive market places.

	Unfortunately, many American workers do not have the basic skills required to excel in 
modern workplaces. According to the Hudson Institute, 60 percent of all jobs in the 21st Century 
will require skills that only 20 percent of the current workforce has.

	Today's workplaces require employees with higher and more varied skills than the 
traditional workplaces of the past.  Jobs are being wholly restructured every seven years, resulting 
in fewer workers remaining competitive in their existing jobs, without continually learning new 
skills.

	With business success riding on workforce competence, workplace literacy is an urgent 
business issue that demands employers' attention.  These realities are intensifying, not going away.  
Assuring that workers have these skills is a long-term problem that requires a long-range 
commitment.

	Employers pay the price for lack of worker skills through poor performance, reduced 
efficiency, high turnover, and low morale.  The direct economic benefits of workplace education 
programs, including increased productivity, reduced time on task, improved health and safety 
records, and increased consumer and customer and employee retention, are important and 
measurable results.

	The indirect economic benefits, such as improved quality of work, better team performance, 
more positive attitudes, and increased flexibility, are less tangible and more difficult to measure.  
Still, employers recognize that these intangibles contribute enormously to organizational 
performance.

	Despite the substantial and increasing need for improving workplace literacy, and the 
bottom line business benefits that come from training workers, there are relatively few workplace 
education programs.  One reason may be that employers simply do not know where to start, and do 
not know what resources are available in their communities to help them.

	I would like to tell you about one company that has actively promoted literacy in the 
workplace.  And by doing so, created a corporate culture of life-long learning.  Larry Liebenow, the 
chairman of the U.S. Chamber of Commerce's board of directors, and CEO of Quaker Fabric 
Corporation, believes that employers who are students for life make for a more skilled workforce, a 
stronger company, and a better community.

	Because of this belief, he established an in-house learning center, where Quaker Fabric 
employees can learn basic skills and math skills to computer skills and supervisory training, all 
without ever leaving their workplace.

	Not only does Quaker Fabric benefit because it can hire and retain good employees, but 
employees benefit because they can meet their career development expectations.  Quaker Fabric 
was described as a leader and role model on this issue by the mayor of Fall River, Massachusetts, at 
the recent announcement of a community initiative to improve reading skills for parents and 
children through an Even Start Grant.

	All too often, however, programs such as the one at Quaker Fabric are dependent on the 
person in the leadership position to make them happen.  CWP believes that chambers can serve in 
this leadership capacity for small and mid-sized businesses, helping to address the challenges of too 
few skilled workers.

	In April 2002, we released a literacy tool kit called, ``A Chamber Guide to Workplace 
Literacy:  Higher Skills, Bottom-Line Results.''  It makes a strong case for workforce education 
programs and community initiatives to assist adult learners.  It is one example of the CWP work 
that we do with our many partners.

	Our work is unique because information we provide is presented from the employer point of 
view.  We work with chambers to build relationships so that they can retain and advance entry-
level workers.  The focus is on dual customers, employers and participants, not dual systems.

	There is a role the government can play, and this role includes connecting adult education 
programs as a core service to one-stop career centers, including the availability of adult basic 
education and literacy skills training as one of the criteria for certifying one-stop career centers, 
linking adult education programs to the skills needed in the 21st century workplace through 
workforce investment boards, and supporting the development of work-readiness credentials that 
certify mastery of the knowledge and skills required by employers.

	The bottom line is employers in our economy need workers with the right skills, and access 
to adult education is one way to achieve this goal.  I thank the chairman and the subcommittee for 
the opportunity, and welcome your questions.

WRITTEN STATEMENT OF BETH B. BUEHLMANN, EXECUTIVE DIRECTOR, CENTER 
FOR WORKFORCE PREPARATION, U.S. CHAMBER OF COMMERCE - APPENDIX D

Chairman McKeon  XE "Chairman McKeon"  . Thank you very much.

Ms. Panella  XE "Ms. Panella"  ?

STATEMENT OF ANN-MARIE C. PANELLA, DIRECTOR OF HUMAN 
RESOURCES, MCS INDUSTRIES, INC., EASTON, PENNSYLVANIA

Ms. Panella  XE "Ms. Panella"  . My name is Ann-Marie Panella, and I am the director of 
human resources with MCS Industries.  MCS is located in Northampton County, Pennsylvania, and 
had a population of 270,000.  We are in Easton, and we are one of the larger employers, with 400 
employees.

	We are a manufacturer, and we have seen our workforce changing and our work changing.  
It is changing because as we become more sophisticated, we need a more sophisticated workforce.  
We now import many products, rather than manufacturing them here.  We need people in 
distribution, and that's all computerized.

	Of the last 25 people I hired, 20 percent of them have not graduated high school, 40 percent 
of them have English as a second language and are immigrants.  Only 11 percent have their GEDs.  
And that is the workforce that I deal with on a day-to-day basis.

	When I started there and realized that I had to write memos below a fifth grade reading 
level in order to be understood, I realized that we needed to do something.  We, as an employer, 
needed to build a foundation for education.

	Many of our employees had dropped out of school because of family obligations.  I have 
quite a number of single-parent households, and they do not want their children to follow that 
closely in their footsteps and drop out.

	Adult-based education is a three-pronged education system.  We talk about GEDs 
constantly, okay?  That is a diploma.  But there is more than that.  There is English as a second 
language, and there is adult basic education.  I want my employees to be reading at a sixth grade 
reading level.

	We talk here about college level, but there is a whole section of the population that cannot 
go that far and that do not have the ability to go that far.  But are we going to leave them behind?  
No, we are not going to leave them behind. We are going to bring them forward, if for any other 
reason than their work ethic.

	My grandparents did not speak English and did not graduate school, either.  It took two 
generations to get someone to graduate college.  But no one gave up.  And why are we giving up?  
Employers must learn that education is the foundation of their business.

	We make picture frames.  It is not rocket science, okay? You put four pieces of wood 
together and you have a picture frame.  The thing is, if you do not get those four pieces in the right 
corners, you do not have a good picture frame.  And then we cannot sell it.

	Just as an aside, I am originally from New York, not Pennsylvania, in case you did not 
catch that.

Ms. Panella  XE "Ms. Panella"  . So what we have to realize is that all levels of manufacturing 
need to be worked with.

	I had an employee come to me after attending our English as a Second Language course for 
three years, and she said, ``My son is in the third grade, and for the first time ever I could read to 
him.  For the first time ever.''  You cannot imagine the joy in that woman's face.

	Do we need money for this?  Yes.  But do we, as employers, need to wake up and start 
doing our part?  Yes. One way we funded it was through vending machines.  You cannot always 
ask the president for money at my company, but vending machines give rebates.  So that goes back 
to the employees in education.

	Now that the State of Pennsylvania has given us some grants, we have a scholarship 
program for employees, their children, and their grandchildren.  You can only break the cycle of 
poverty through education.  It is the only way.  So maybe my employees will not go to college, but 
their children or their grandchildren will.  And we will help them.  Thank you.

WRITTEN STATEMENT OF ANN-MARIE C. PANELLA, DIRECTOR OF HUMAN 
RESOURCES, MCS INDUSTRIES, INC., EASTON, PENNSYLVANIA - APPENDIX E

Chairman McKeon  XE "Chairman McKeon"  . Thank you very much.

Dr. Whitfield?

STATEMENT OF RANDY WHITFIELD, ASSOCIATE VICE PRESIDENT OF 
ACADEMIC AND STUDENT SERVICES, BASIC SKILLS DEPARTMENT, 
NORTH CAROLINA COMMUNITY COLLEGE SYSTEM

Dr. Whitfield  XE "Ms. Whitfield"  . Mr. Chairman, members of the committee, thank you for 
the opportunity to talk about adult education.  I am here as a state director of adult education, but 
also in another role; I am the chairperson of the National Council of State Directors of Adult 
Education.

	And in that role, I submitted separate testimony to you, with a document called ``Bottom 
Lines'' that talks about what the state directors of adult education want for reauthorization.  What I 
am going to share today is what I want, and it is a part of the ``Bottom Lines.''

	Many state directors, including me, not only administer the programs, but we have also 
taught in them.  And we know what improvements are needed.  After teaching developmental 
studies to community college freshman for over 15 years, I taught an adult education class to 16 
mechanics in a local plant, six of whom were beginning-level readers.

	With degrees in teaching, reading and English, I had knowledge of the scope and sequence 
of the skills needed, and I also knew that adults were learners in a hurry.  They want to apply 
tomorrow what they learned in class today.  So with a collection of menus from local restaurants, 
information from the plants, and textbooks with practice exercises, I began helping these 
individuals.

	The day I decided to switch to adult education full time was the day that one of the 
beginning-level students stood up in class, and bragged that he had gotten a letter from the 
company and could read every word.  We stood up and cheered, and then we asked him what it 
said, and he said, ``It said I am going to be laid off the whole month.  But I could read it.''  He was 
very proud.

	So I hope that my being here today will help the many students we serve across the United 
States and in the outlying areas.  You have talked about the fact that our programs serve 2,700,000 
students.  But there are over 94,000,000 who need our services.

	I recently participated in one of the Department of Education's visioning meetings for 
reauthorization.  One participant who was not in the field said she first started to look at those 
figures and criticize us for not serving the number we needed.  But then she saw the amount of 
funding we got, and praised us for doing so much with so little.

	So the state directors would like to have an increase in funding, over a period of years, 
making it gradual, but so that we can improve our program quality, become more accountable, and 
serve more students.

	And you have already heard about the fact that many of our programs have waiting lists, 
particularly for the immigrant population.  In North Carolina, companies call our programs 
frequently, begging for workplace programs for their immigrant employees.

	We appreciate the additional funding we got from the federal government for English 
literacy civics education, but we would really prefer for that to be incorporated into our regular 
funding, because it is a little time consuming to manage as a set-aside.

	Our programs not only do so much with so little, but we also do many different things for 
so many different people, something we think needs to be continued.  I mean, we serve those who 
cannot read, those who just need a few classes to complete a GED, or a high school diploma, 
mothers who want to improve their skills to help their children, incarcerated people nearing their 
time to re-enter society, and the immigrants.

	There has been a movement toward making our programs workforce development only, and 
although many states have extensive workplace education programs, we are so much more than 
that.

	I once intervened between an instructor and an auditor.  Class was in a workplace setting, 
and the auditor was questioning the fact that the instructor was teaching the student, a retired 
grandmother, by using children's books. The auditor said, ``That's not workplace education.''

	My response was, ``She is preparing the workforce of the future.''  When you teach an adult, 
according to reading expert Dr. Tom Stitch, you get ``double duty dollars,'' because your money 
helps the parent learn, who, in turn, helps the child learn.  If you leave no adult behind, you will 
definitely leave no child behind.

	We also feel very strongly about accountability, and we want to be accountable.  We have 
been working with the U.S. Department of Education to develop our accountability methods, 
measures, and to strengthen them.  But with all that we are asked to do, we need help, especially 
with teacher training, and the curriculum standards.

	In current law, our state leadership funds that provide professional development were 
reduced from 15 percent to 12.5 percent.  And that needs to be changed, because only 14 percent of 
our teachers in the program nationwide are full-time, making turnover a problem, and training even 
more imperative.

	We also believe that another way to strengthen accountability is through a continued 
emphasis on the national program funding through the U.S. Department of Education, because we 
cannot handle all the issues surrounding accountability of program quality without them.  But we 
would like to see that funding separated, as it has in the past, from the state grants.

	So thank you, again, for letting me be here today to talk about adult education.  Thank you.

WRITTEN STATEMENT OF RANDY WHITFIELD, ASSOCIATE VICE PRESIDENT OF 
ACADEMIC AND STUDENT SERVICES, BASIC SKILLS DEPARTMENT, NORTH 
CAROLINA COMMUNITY COLLEGE SYSTEM - APPENDIX F

Chairman McKeon  XE "Chairman McKeon"  . Thank you.

Ms. Morales?

STATEMENT OF HERMELINDA MORALES, ADULT EDUCATION 
PARTICIPANT, AURORA, COLORADO

Ms. Morales  XE "Ms. Morales"  . Thank you.  Good afternoon, Chairman McKeon, 
Representative Kildee, and distinguished members of the community.  I thank you for inviting me 
to testify on improving adult education for the 21st century.

	My name is Hermelinda Morales, and I am here to tell you how the family literacy adult 
education programs have helped me and my family improve our situation.  The fact that I can sit 
before you on this occasion proves that without the family literacy program, I was to be faced with 
a future that did not look bright.

	I am from Mexico, but I lived in the United States for seven years.  I came to the United 
States in search of the opportunities that this great country is known for.  However, I did not speak 
any English, and this limited my opportunities to parking cars and cleaning hotel rooms.  I knew 
that in order for me to move forward in the workplace, and provide a good life for my family, I 
would need to learn English.

	My desire to increase my skills, and therefore my chances for success in the workplace, was 
only part of my motivation.  I also wanted to be able to help my children succeed in school.  I want 
to be a good role model.  I was lucky, I found the Jamaica Elementary School family literacy 
program.  This program receives money that you all here in Congress provide, along with 
additional money from the National Center for Family Literacy's Toyota Families in School grant.

	I have attended this program for three years.  In this program, I have learned to read, write, 
and speak English.  As I stated earlier, before I started this program, I did not speak any English, 
and my opportunities were limited.  However, as I learned English, I was able to find better work, 
and now I work for a company where I always communicate in English.

	This family literacy adult education program has helped me very much to become 
independent.  I am able to go to the doctor without an interpreter, conference with my children's 
teacher, and fill out necessary forms.

	An example is when I applied for my citizenship.  This helped me to understand what I was 
reading and writing during the interview.  Now I am proud to say that I have accomplished my first 
goal.  I am a U.S. citizen.

	This family literacy program has positively impacted my entire family.  It has helped me to 
understand my children's homework and to read messages from the children's teacher.  I am now a 
much more involved parent in my children's education.

	In the family literacy program, I am learning many ways to help my children with reading, 
writing, and math. Because my adult education program is also part of my family literacy program, 
I learn what my children are learning in their classroom, and my son feels happy because I am there 
with him.  Parent time is very important, because the teachers make time to come in and show us 
how to help our children with reading and writing.

	Family literacy is very important because when I came to the United States I could not 
communicate with other people in English.  Now, I am an active member of my community.

	I have set two goals, and I accomplished one of them so far.  The first one was to learn 
English, to get my citizenship.  Now that I have completed that, my second goal is to study hard 
and get my GED to get a better job that pays more money to provide for my family.

	In addition, there is no excuse from my not attending due to not having a baby-sitter.  The 
family literacy program provides free day care for children who are not yet in school.  I am very 
grateful to the volunteers who give their time to us.

	The program could be even more successful to myself, as well as the other parents, if we 
could go more days with longer hours.  Nights and weekend hours would be wonderful to those of 
us who work during the day.

	In closing, without a doubt, I would not be as far as I am today without our family literacy 
program.  Again, they taught me to speak English, to read English, to have better self-confidence, 
to move forward to get my GED, and most importantly, being able to understand and help my 
children with their growing education.

	I know that the Congress wants to see certain programs work, and spend money only when 
there are good results.  What family literacy and adult education have done for me is real.  It works, 
thanks to you.

	I encourage Congress to make family literacy an important part of adult education in the 
21st century.  Thank you very much.

WRITTEN STATEMENT OF HERMELINDA MORALES, ADULT EDUCATION 
PARTICIPANT, AURORA, COLORADO - APPENDIX G

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  That was great.  I think we all 
learned a lesson from you, and from the things that you have accomplished in a very short time.

	You need to set some other goals.  College.  Your children are not here with you?

Ms. Morales  XE "Ms. Morales"  . No, no.  They are with my mom, in Colorado.

Chairman McKeon  XE "Chairman McKeon"  . Too bad they could not have come to see you 
testify.

Ms. Morales  XE "Ms. Morales"  . No.

Chairman McKeon  XE "Chairman McKeon"  . Not many people do this.

Ms. Morales  XE "Ms. Morales"  . Yes.  I am so nervous, I am sorry.  I hope you understand.

Chairman McKeon  XE "Chairman McKeon"  . We are all nervous.

Ms. Morales  XE "Ms. Morales"  . Yes.

Chairman McKeon  XE "Chairman McKeon"  . Well, thank you.  That is a great panel.  I do 
have some questions.  I would kind of like to focus on Ms. Morales a little bit, because of what you 
have gone through.

	Could you describe what the curriculum was like that helped you to learn to read and write 
English?

Ms. Morales  XE "Ms. Morales"  . Well, my father came here to the United States when I was 
three months old.  He always came and worked and then came back.  And then we came and lived 
here.

	I was a resident before, but I wished to be a U.S. citizen.  So that is the most important part, 
because I want to learn English.  And then I had three children, so I needed to know English to help 
them with homework and read every night. Now, every night, we read a book.  I enjoy it very 
much.

Chairman McKeon  XE "Chairman McKeon"  . How old were you when you came?

Ms. Morales  XE "Ms. Morales"  . I was 18 years old.

Chairman McKeon  XE "Chairman McKeon"  . And what education had you had in Mexico?

Ms. Morales  XE "Ms. Morales"  . Well, the place where I lived in Mexico there was 
something like, I do not know, maybe elementary education.  Just six years.  And then nothing.  
Just six years in a school, and then we went to work in the fields.  Yes.

Chairman McKeon  XE "Chairman McKeon"  . So you have really accomplished a lot.  If 
someone came from Mexico with a college degree, it would be much easier for them to learn 
English, because they would have already learned Spanish, you know, with probably more 
education than you have had.  So you have had two barriers to overcome, the language and the 
education barrier.

Ms. Morales  XE "Ms. Morales"  . Yes, yes.

Chairman McKeon  XE "Chairman McKeon"  . So you are doing very well.  I commend you.  It 
is not easy.

Ms. Morales  XE "Ms. Morales"  . Yes.

Chairman McKeon  XE "Chairman McKeon"  . I speak a little Spanish, and I think English is a 
lot harder to learn than Spanish.

Ms. Morales  XE "Ms. Morales"  . Yes.

Chairman McKeon  XE "Chairman McKeon"  . But it is not an easy thing to do, and it would be 
much easier to just keep driving cars, keep washing, doing things where you did not have to stretch 
yourself and reach out.

Ms. Morales  XE "Ms. Morales"  . Yes.

Chairman McKeon  XE "Chairman McKeon"  . So I commend you for the great thing that you 
are doing, and your children and grandchildren years from now will bless you for what you have 
done for them.

	In the workplace, you talked about setting up schools and education.  It is the employer's 
responsibility also to step up and do these things.  Are you just fortunate that your company 
realized the importance, Ms. Panella?  How did this happen?  They just all of a sudden said, ``Let's 
be good citizens, let's help our employees learn more''?

Ms. Panella  XE "Ms. Panella"  . Well, I am very lucky in that my employer is sympathetic to 
it.  However, there was the realization that the workforce in our area was changing.  

Chairman McKeon  XE "Chairman McKeon"  . Self-preservation.

Ms. Panella  XE "Ms. Panella"  . Right.  The number of immigrants that were coming in who 
did not have English, increased over 100 percent in the Latino population in Easton from 1990 to 
the year 2000.  So we had to change.

	There was also the realization that we could no longer be a manufacturer the way we were 
years ago.  Now we have to be a computer-literate manufacturer.  You cannot just turn your back 
on the people who have worked for you for 20 years because they were part of that prior group.  So 
what you have to do is bring them forward with you.  That is what made us decide to get involved.

	Luckily, we had two resources right within our community, both the community college, as 
well as one of the non-profit organizations, where there were teachers available to us.  It is very 
difficult for people to admit that they cannot read.

	My staff and I noticed that when somebody takes an application and says, ``I am going to 
go out to the car, I will be back,'' it is usually because there is someone in -

Chairman McKeon  XE "Chairman McKeon"  . ``I forgot my glasses,'' or - 

Ms. Panella  XE "Ms. Panella"  . Right.  There is someone in the car to fill out the application.  
So that is a flag to us.

	People have to first admit to their employer that they cannot read about our 401(k) plan, or 
their benefits.  That is difficult to do.

Chairman McKeon  XE "Chairman McKeon"  . Even if they could read, it is hard to understand 
some of those.

Ms. Panella  XE "Ms. Panella"  . Some of those I have a problem with, yes.

Ms. Panella  XE "Ms. Panella"  . But to admit to your employer, you have to feel rather secure 
to do that.  We have people that are illiterate in two languages, their native tongue and English.

Chairman McKeon  XE "Chairman McKeon"  . And that was the point I was making with Ms. 
Morales.  That is tougher.

Ms. Panella  XE "Ms. Panella"  . That is much tougher, because you really have to be 
dedicated to it.

Chairman McKeon  XE "Chairman McKeon"  . Thank you very much.  Mr. Kildee?

Mr. Kildee  XE "Mr. Kildee"  . Thank you, Mr. Chairman.  Ms. Morales, how did you find out 
about the family literacy program?

Ms. Morales  XE "Ms. Morales"  . When I went to enroll my son and my daughter in the school 
when they were going to kindergarten two years ago.  They told me, and I decided to enroll in the 
school.

Mr. Kildee  XE "Mr. Kildee"  . Very good.  So you found out through the school system?

Ms. Morales  XE "Ms. Morales"  . Yes.

Mr. Kildee  XE "Mr. Kildee"  . I tell you who would be very happy, were he here today, is Mr. 
Bill Goodling.  This man spent so much energy and time stressing to all of us, emphasizing to all of 
us, the importance of family literacy.  And he would be dancing in the aisle here, having heard your 
testimony today, because you are exactly what he had in mind when he educated us on the 
importance of family literacy.  You are certainly a great witness, and I thank you very, very much.  
Thank you, Mr. Chairman.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.

Ms. Morales  XE "Ms. Morales"  . Thank you for inviting me.  I am so excited to be here.  
Thank you.

Mr. Kildee  XE "Mr. Kildee"  . Very good.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Isakson?

Mr. Isakson  XE "Mr. Isakson"  . Thank you, Mr. Chairman.  Dr. Buehlmann, in my district, 
and I think all over the country, there is a lot of concern with the American businesses actually 
going overseas for many of their employee services, data processing, data entry, and all those types 
of things.  Have you focused on that at the U.S. Chamber?

	The reason I am asking is because it seems like one of the reasons these jobs are going is 
because we do not have as many people at that level of literacy and ability in this country to do the 
job, so obviously they go overseas.  It is not just a matter of cost.  Have you ever looked into that, 
or do you have any idea?

Dr. Buehlmann  XE "Ms. Buehlmann"  . Well, I think what you are talking about is the very 
reason that the U.S. Chamber established the Center for Workforce Preparation, to help chambers 
become a resource for small and medium-sized businesses in their communities that do not have 
HR individuals or a way of understanding and pulling together what they need to have the qualified 
workforce that they need.

	All our surveys indicate that to remain competitive, employers understand they need a 
literate and a skilled workforce.  What we try to do is help them understand the resources in their 
community to better support entry-level workers, that do not have those skills, so that they can 
create that pipeline of skilled, qualified workers that they need.

	The whole purpose is to try to provide that, and increase that pipeline so that they will stay, 
as opposed to going overseas.

Mr. Isakson  XE "Mr. Isakson"  . The other benefit is the job does not end up going overseas, 
because we have a better workforce here, which is one of the things Ms. Panella is talking about, in 
terms of the company.

	I was a chamber president, and we did a lot of workforce development.  In fact, Dr. 
Whitfield, do you know Dr. Ken Breeden?  He is the head of adult and technical education in 
Georgia, and we had a tremendous effort to get better literacy and better training, to get them into 
technical education, and then get them into employment programs, because there was a huge gap.

	But I just think it's really interesting that Ms. Morales - I guess you came as a resident alien 
with your father, is that correct?

Ms. Morales  XE "Ms. Morales"  . Yes.

Mr. Isakson  XE "Mr. Isakson"  . And then gained citizenship, and then immediately went and 
became literate to end up becoming a citizen to now ultimately being employed.  That is the benefit 
of Bill Goodling's program, and really what it is all about.

	I appreciate all three of you ladies and what you are doing in your various states to develop 
programs to get our underemployed workforce that we have in America today more employable by 
applying not only job training through the company and skill training, but also seeing that we get 
the literacy, as you were talking about, Dr. Whitfield, so they can build on that platform.

	We appreciate all of you being here today, and appreciate your testifying.  Thank you, Mr. 
Chairman.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Tierney?

Mr. Tierney  XE "Mr. Tierney"  . Thank you, Mr. Chairman.  Thank you all for your 
testimony here today.  Ms. Morales, you were terrific, and you did not look a bit nervous, and you 
should not have been, because you did a great job.  Thank you.

	I was wondering, Dr. Buehlmann if, in the course of your work, have you - are you able to 
give me an opinion of what you think the adequacy of the job that the Workforce Investment 
boards are doing in terms of basic skills development in literacy?

Dr. Buehlmann  XE "Ms. Buehlmann"  . Well, I think you're going to find disparate 
performance with respect to Workforce Investment boards.  In terms of the ability to retain the 
interest of employers, in this field, and to be able to engage them in meaningful work towards 
creating a workforce system that makes sense in communities, I would venture to say that when 
you look at the Workforce Investment Act, one of the things that you need to think about is what 
the role of that board is.

	If it is only to oversee the Workforce Investment Act, then make that clear.  But I do not 
think that was the vision that was created here.  I think the vision was to create a workforce 
development system that brings together, and cuts across a variety of programs that all contribute to 
the efforts that we are representing.

	The role needs to be clearly specified in the law, and it is to create that vision.  It is to look 
at the needs in that community, it is to understand the resources that are there, and then put 
something together that makes sense for that community.  That is the role that I think business 
wants to have, and is good at having, in terms of contributing.

	If it is only to comply with specific federal laws, and to sign off on papers, then they are not 
going to continue to be engaged, or find value in that system.  And so I think we have to create the 
purpose, and they will find the value in that system.  I think we will improve, overall, the 
performance of the Workforce Investment boards across the country.

Mr. Tierney  XE "Mr. Tierney"  . Thank you very much.  Dr. Whitfield, what if you had to just 
tell us two things that you think would be critical for our attention as we reauthorize the Workforce 
Investment Act, what would they be?

Dr. Whitfield  XE "Ms. Whitfield"  . I think one thing would be what I mentioned earlier 
about professional development.  As I said, in the current law, our ability to provide professional 
development was limited because we were capped at 12.5 percent for state leadership dollars, 
which included many more activities, and also professional development.

With all the new programs, the new accountability, and the discussion of curriculum 
standards, we need to be able to train our local program staff, and help them.  Therefore, we do 
need an increase in the way to provide professional development.  So an increase in that cap.

	The second thing, I think, is an overall increase in funding.  And as I said, we realize that it 
can be done gradually, over a period of years, but many states are having the waiting list, as you 
experience in your own state, and it is an access problem.  We are trying very hard to meet the 
needs, particularly of the immigrants.

	As I mentioned, in our state we have companies calling our colleges every day, wanting to 
provide workplace literacy programs.  We try to do that.  As a matter of fact, we provide programs 
to over 10,000 students in their workplace settings in North Carolina already.  But we need to be 
able to do more.

	Because of state budget crises, we have a lack of money available now.  And our state is not 
the only one. So as we need more and more for the immigrant population and others, we are finding 
the revenues within each state dwindling.  I would definitely say it is an issue of funding, and the 
ability to be flexible in how we spend the state leadership.

Mr. Tierney  XE "Mr. Tierney"  . Thank you.  Ms. Panella, before my time runs out, I just 
wanted to know what experiences, if any, have you had with your local Workforce Investment 
board?

Ms. Panella  XE "Ms. Panella"  . None.

Mr. Tierney  XE "Mr. Tierney"  . None?  So it's all in-house?  You do not reach out, or they do 
not reach out to you, either?

Ms. Panella  XE "Ms. Panella"  . Well, I should not say none, but only within the last two 
years has it become known to us.  Initially, it was just a cooperative effort with the community 
college.

	I think that outreach is what is lacking.  You know, I should not have felt as though I was 
creating this by myself.

Mr. Tierney  XE "Mr. Tierney"  . I think - I do not know, I think some of that may be that the 
Workforce Investment boards under the last reauthorization were just sort of getting their legs, and 
figuring out who they were.

	I know in our state, we missed a whole year, waiting for the governor and the 
administration to sort of figure out what they were going to do about the statewide workforce 
investment council, and then, you know, they are developing it, and now we are seeing a better 
impact.  And I hope that's the case.  Your comments are helpful in that regard.

	And the community college role is another role that I hope that we get a chance to really 
delve into, because they're being asked to do a lot, but this is one area where they can be the ones 
that interface with that industry group and do a substantial amount of work.

	So again, thank you all for your testimony.  Ms. Morales, congratulations to you, and thank 
you.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  The law was passed in 1998, and it 
took them a couple of years just to get up to speed.  And I know the one-stops I visited, I was in 
one in Nevada a couple of weeks ago.  It had a beautiful set-up, and they had people in there.

	But I asked them how they were reaching out, because it is one of our biggest problems.  
We had a meeting with the chamber to see how we could reach out into the community to get 
known what there is.

Mr. Tierney  XE "Mr. Tierney"  . We have also had some displacements that have impacted, 
that were taking up almost all the retention, where Lucent had serious displacement.  Took that 
whole Merrimack Valley region up and distracted them to that one population, almost.  So it's also 
a capacity issue in many of those things.

Chairman McKeon  XE "Chairman McKeon"  . But it does take time for people to learn where 
these things are, and what is available.  And hopefully it will get better every day.  Mr. Keller?

Mr. Keller  XE "Mr. Keller"  . Thank you, Mr. Chairman.  Dr. Whitfield, let me ask you.  You 
mentioned the waiting lists in your state.  How do the local employers in your area - say Raleigh - 
hear about the adult education programs that are offered in the workplace settings by community 
colleges?

Dr. Whitfield  XE "Ms. Whitfield"  . There are a couple of ways.  We have a book which we 
publish every year regarding workplace education in North Carolina.

	However, because we are with a community college system, we do have better access to 
those workplace setting, since we have a person specifically assigned to be the liaison to business 
and industry on every community college campus.

	Therefore, they go in and they do an assessment of what is needed.  And if they find out 
they need the basic skills, then they contact the local program directors.  We have 58 community 
colleges in our state, so they are spread throughout the state.

Mr. Keller  XE "Mr. Keller"  . Well, do you think the typical personnel director in a large 
corporation area would know about the program?

Dr. Whitfield  XE "Ms. Whitfield"  . Definitely.  They do know about the program.  Several 
years ago, the state of North Carolina brought together key participants in the welfare movement, 
and we did a series of programs where we brought business and industry leaders, community 
college people, and people from basic skills, and talked about the different things that we do.  And 
it was highlighted.

Mr. Keller  XE "Mr. Keller"  . Okay.  Ms. Panella, you mentioned that one of the ways that 
you fund your programs is through revenues from vending machines.

Ms. Panella  XE "Ms. Panella"  . Yes.

Mr. Keller  XE "Mr. Keller"  . Tell me about that.  Are those vending machines at the 
business, themselves?

Ms. Panella  XE "Ms. Panella"  . Yes.

Mr. Keller  XE "Mr. Keller"  . And the CEO decides that a portion of it should go to this, or 
how does that work?

Ms. Panella  XE "Ms. Panella"  . They are in the lunch room, and that is the employees' 
money.  It comes back to the employee, in terms of education.

Mr. Keller  XE "Mr. Keller"  . And who makes the decision, like, where the revenues go?  Is 
that you, as a personnel director, or - 

Ms. Panella  XE "Ms. Panella"  . I can go to the owners of the company and convince them 
that that would be a good place for it to go.

Mr. Keller  XE "Mr. Keller"  . Yes.  That is very creative.  I have not heard of that as an idea 
before.  I know that I hear about vending machines in the public schools all the time.  I think they 
are used to fund physical fitness programs, but I have not heard about them in the workplace.

	In your opinion, is there anything else that businesses and educational institutions can do 
better to break the cycle of illiteracy in America?

Ms. Panella  XE "Ms. Panella"  . I think that both business and the educational systems have to 
communicate.  We cannot consider ourselves as two separate entities.

	I was really happy to hear that the Department of Education and the Department of Labor 
do talk to each other.  I think even on a smaller community level, we have to communicate better 
back and forth.

Mr. Keller  XE "Mr. Keller"  . Okay.  Ms. Morales, I want to congratulate you on your 
success.  I think you need to run for Congress some day.  Your values of hard work and common 
sense are much needed around here.  Other than us on the panel, there are not a lot of us here that 
have those qualities, and I am not so sure about these guys - just kidding, my dear colleagues.

Mr. Keller  XE "Mr. Keller"  . But tell me how old your children are.

Ms. Morales  XE "Ms. Morales"  . How old?

Mr. Keller  XE "Mr. Keller"  . Yes.

Ms. Morales  XE "Ms. Morales"  . Well, I have twins.  They are eight years old.  And I have a 
younger daughter.  She will be five years old next month.

Mr. Keller  XE "Mr. Keller"  . Well, let's talk about your twins, who are eight years old.  Now 
that you have learned to read and speak English pretty well, does that help you in teaching them to 
read at night?

Ms. Morales  XE "Ms. Morales"  . Yes, yes.  They read and I learn from them, and they learn 
from me.  Yes, we are learning together.

Mr. Keller  XE "Mr. Keller"  . Are they in second grade?

Ms. Morales  XE "Ms. Morales"  . Yes, they are.

Mr. Keller  XE "Mr. Keller"  . Second grade.

Ms. Morales  XE "Ms. Morales"  . Yes.

Mr. Keller  XE "Mr. Keller"  . And they are reading pretty well?

Ms. Morales  XE "Ms. Morales"  . Yes.

Mr. Keller  XE "Mr. Keller"  . Okay, well, thank you.

Ms. Morales  XE "Ms. Morales"  . Thank you.

Mr. Keller  XE "Mr. Keller"  . Dr. Buehlmann, tell me, do you think that most personnel 
directors in major businesses that would, say, be members of the chamber would know about what 
the different adult education opportunities are in their area?

	And if so, how would they get the word about where to send someone who needs to learn to 
read, or learn English as a second language?

Dr. Buehlmann  XE "Ms. Buehlmann"  . Well, because chambers generally focus more on small 
and mid-sized businesses, I would venture to say that larger corporations do form collaboratives 
with their various education organizations and institutions in their community, because they do 
have separate HR departments, personnel individuals.

	Small and mid-sized businesses, meaning 10 or fewer employees to 50 or fewer employees 
generally do not have those individual HR departments.  And those are the workplaces and the 
employers that we try to reach to help them better understand what the resources are in their 
community to leverage these kinds of services.  Not only does this help their bottom line, but their 
employees' bottom line as well.

Mr. Keller  XE "Mr. Keller"  . Well, thank you.  My time has expired. Mr. Chairman?

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Mr. Payne?

Mr. Payne  XE "Mr. Payne"  . Well, thank you very much.  I really do not have any questions.  
I did not have an opportunity to hear the three previous witnesses, although I was fortunate enough 
to catch the star of the panel, Ms. Morales, and I, too, would like to compliment you for the fine job 
that you are doing, and the great example that you are setting for your children.  And I certainly 
wish you continued success.

	I might ask the other panelists, though, a lot of the emphasis, of course, is English as a 
Second Language.  We are aware of the fact that many new residents in our country are Spanish-
speaking.

	I hate that word, ``alien.''  You know?  What do you call it, ``illegal aliens,'' and stuff.  We 
ought to come up with another name.  I mean, I would hate to be considered an alien.  It sounds 
like you're from outer space somewhere.

	But what about the persons who simply had bad educations, just persons who, you know, 
dropped out of school, those who never were able to achieve in school?  I see a lot of emphasis on 
the English as a Second Language and so forth, which we certainly need to do, since, as I have 
indicated, a large number of our new guests are from Spanish-speaking countries.

	But do any of the three of you have any experience with people who were born here, their 
parents might have been illiterate, they have never learned literacy very much?  How are you 
finding that group, or do they come forth?  Or what's your experience, any one of the three of you?

Dr. Whitfield  XE "Ms. Whitfield"  . Although English as a Second Language is our growing 
population in North Carolina, our largest number of students are in our adult basic education 
program, where we serve over 60,000 a year in that program alone.

	It is very difficult to get many of these students into our classes, but one of the ways that we 
have been successful in doing that is through our workplace literacy program.

	I have had examples when I was teaching where the student would hear about the 
workplace class and be too embarrassed to go to that one.  But they would then follow up and come 
to another class in the community, as a result.  Word does get around about our programs, but I 
think it starts a lot through the workplace.

Mr. Payne  XE "Mr. Payne"  . All right.  Well, thank you very much, Mr. Chairman.

Chairman McKeon  XE "Chairman McKeon"  . Thank you.  Actually, we had four stars.  They 
were all great.  It was a great panel, and you all were tremendous.  We appreciate your time.

	I have been thinking of a lot of things as this panel was going on.  My grandfather came 
over from England at a young age, and he had to relearn English also, because they speak it 
differently-although it's a little easier than learning it totally new.

	But I can remember that he dropped out of high school or junior high at a young age 
because kids kidded him, the way he talked, and he would get in a fight every day at school.  
Finally, he just quit school and went to work at the tannery. He was about five feet tall, but he had 
big arms.  And I think of what people went through then, when they did not have the kind of 
programs that they have now.

	When he was older and he would come over to visit us, we would always say, ``Grandpa, 
talk English.''  We wanted him to talk cockney so that we could not understand him.

	But this is a great work that we are involved in here, and we have some important things to 
do with this reauthorization, and I appreciate all of you taking your time and being here today, and 
I encourage you each to keep up what you are doing, and keep in close touch with us as we go 
through this reauthorization.

	And now, if there is no further business for the committee, the committee stands adjourned.

	[Whereupon, at 4:02 p.m., the subcommittee was adjourned.]












APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN 
HOWARD "BUCK" MCKEON, SUBCOMMITTEE ON 21ST CENTURY 
COMPETETIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, 
D.C.













APPENDIX B - WRITTEN OPENING STATEMENT OF RANKING 
MINORITY MEMBER DALE E. KILDEE, SUBCOMMITTEE ON 21ST 
CENTURY COMPETETIVENESS, COMMITTEE ON EDUCATION AND 
THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, D.C.












APPENDIX C -- WRITTEN STATEMENT OF CAROL D'AMICO, 
ASSISTANT SECRETARY, OFFICE OF VOCATIONAL AND ADULT 
EDUCATION, U.S. DEPARTMENT OF EDUCATION, WASHINGTON, D.C. 













APPENDIX D -- WRITTEN STATEMENT OF BETH B. BUEHLMANN, 
EXECUTIVE DIRECTOR, CENTER FOR WORKFORCE PREPARATION, 
U.S. CHAMBER OF COMMERCE, WASHINGTON, D.C.













APPENDIX E - WRITTEN STATEMENT OF ANN-MARIE C. PANELLA, 
DIRECTOR OF HUMAN RESOURCES, MCS INDUSTRIES, INC., EASTON, 
PENNSYLVANIA.











APPENDIX F -- WRITTEN STATEMENT OF RANDY WHITFIELD, 
ASSOCIATE VICE PRESIDENT OF ACADEMIC AND STUDENT 
SERVICES, BASIC SKILLS DEPARTMENT, NORTH CAROLINA 
COMMUNITY COLLEGE SYSTEM.














APPENDIX G -- WRITTEN STATEMENT OF HERMELINDA MORALES, 
ADULT EDUCATION PARTICIPANT, AURORA, COLORADO.




                                 Table of Indexes



Chairman McKeon, 1, 3, 5, 8, 9, 11, 12, 14, 15, 18, 19, 21, 22, 23, 26, 27, 29, 31, 32, 33, 34, 35, 37, 
40, 41
Dr. Gingrey, 11, 12
Mr. Burns, 21, 22
Mr. Ehlers, 18, 19
Mr. Hinojosa, 15, 16, 17
Mr. Holt, 12, 13, 14
Mr. Isakson, 14, 15, 34, 35
Mr. Keller, 38, 39, 40
Mr. Kildee, 3, 9, 10, 11, 21, 34
Mr. Payne, 40, 41
Mr. Tierney, 19, 20, 21, 35, 36, 37
Mr. Van Hollen, 17, 18
Ms. Buehlmann, 24, 34, 35, 40
Ms. D'Amico, 5, 8, 9, 10, 11, 12, 13, 14, 15, 16, 17, 18, 19, 20, 21, 22
Ms. Morales, 29, 31, 32, 34, 35, 39, 40
Ms. Panella, 26, 27, 33, 34, 37, 38, 39
Ms. Whitfield, 23, 27, 36, 38, 41





</pre></body></html>
